Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




SKILLED NURSING FACILITIES
 OFTEN FAIL TO MEET CARE
 PLANNING AND DISCHARGE
 PLANNING REQUIREMENTS




                   Daniel R. Levinson
                    Inspector General

                     February 2013
                    OEI-02-09-00201
EXECUTIVE SUMMARY: SKILLED NURSING FACILITIES OFTEN FAIL TO MEET
CARE PLANNING AND DISCHARGE PLANNING REQUIREMENTS
OEI-02-09-00201

WHY WE DID THIS STUDY

Skilled nursing facilities (SNF) are required to develop a care plan for each beneficiary and
provide services in accordance with the care plan, as well as to plan for each beneficiary’s
discharge. These requirements are essential to ensuring that beneficiaries receive appropriate
care and safely transition from one care setting to another. Several Office of Inspector General
studies and investigations found that SNFs had deficiencies in quality of care, did not develop
appropriate care plans, and failed to provide adequate care to beneficiaries. In fiscal year 2012,
Medicare paid $32.2 billion for SNF services. This study is part of a larger body of work about
SNF payments and quality of care.

HOW WE DID THIS STUDY

We based this study on a medical record review of a stratified simple random sample of SNF
stays from 2009. The reviewers determined the extent to which SNFs developed care plans that
met Medicare requirements, provided services in accordance with care plans, and planned for
beneficiaries’ discharges as required. Reviewers also identified examples of poor quality care.

WHAT WE FOUND

For 37 percent of stays, SNFs did not develop care plans that met requirements or did not
provide services in accordance with care plans. For 31 percent of stays, SNFs did not meet
discharge planning requirements. Medicare paid approximately $5.1 billion for stays in which
SNFs did not meet these quality-of-care requirements. Additionally, reviewers found examples
of poor quality care related to wound care, medication management, and therapy. These findings
raise concerns about what Medicare is paying for. They also demonstrate that SNF oversight
needs to be strengthened to ensure that SNFs perform appropriate care planning and discharge
planning.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS): (1) strengthen the
regulations on care planning and discharge planning, (2) provide guidance to SNFs to improve
care planning and discharge planning, (3) increase surveyor efforts to identify SNFs that do not
meet care planning and discharge planning requirements and to hold these SNFs accountable,
(4) link payments to meeting quality-of-care requirements, and (5) follow up on the SNFs that
failed to meet care planning and discharge planning requirements or that provided poor quality
care. CMS concurred with all five of our recommendations.
TABLE OF CONTENTS

Objectives .................................................................................................... 1
Background .................................................................................................. 1
Methodology ................................................................................................ 5
Findings ....................................................................................................... 9
           For 37 percent of stays, SNFs did not meet care plan or service
           requirements..................................................................................... 9
           For 31 percent of stays, SNFs did not meet discharge planning
           requirements................................................................................... 11
           Medical reviewers found examples of poor quality care related
           to wound care, medication management, and therapy ................... 13
Conclusion and Recommendations ............................................................ 16
           Agency Comments and Office of Inspector General Response .... 19
Appendixes ................................................................................................ 20
           A: List of the 18 Resident Assessment Protocols ......................... 20
           B: Sample Design ......................................................................... 21
           C: Point Estimates, Sample Sizes, and 95-Percent Confidence
           Intervals for All Estimates Presented in the Report ....................... 22
           D: Agency Comments ................................................................... 25
Acknowledgments ..................................................................................... 28
                   OBJECTIVES
               1. To determine the extent to which skilled nursing facilities (SNFs) met
                  Medicare requirements for care planning.
               2. To determine the extent to which SNFs met Medicare requirements for
                  discharge planning.
               3. To describe instances of poor quality care provided by SNFs.

               BACKGROUND
               SNFs provide skilled nursing care, rehabilitation services, and other services to
               Medicare beneficiaries who meet certain conditions. In fiscal year (FY) 2012,
               Medicare paid $32.2 billion for SNF services. 1 To participate in Medicare,
               SNFs must meet certain quality-of-care requirements. SNFs must develop a
               care plan for each beneficiary and provide services in accordance with the care
               plan, as well as plan for each beneficiary’s discharge. 2 These requirements are
               essential to ensuring that beneficiaries receive appropriate care and safely
               transition from one care setting to another.
               The Office of Inspector General (OIG) has identified a number of problems
               with the quality of care provided in nursing facilities. Notably, OIG found that
               74 percent of nursing facilities surveyed in 2007 had at least one deficiency
               related to quality of care. 3 Another OIG report about psychosocial services
               found that SNFs often did not develop appropriate care plans or provide all
               services identified in care plans. 4 In another report about atypical antipsychotic
               drugs, OIG found that nearly all records reviewed failed to meet one or more
               Medicare requirements for beneficiary assessments or care plans. 5 OIG also


               1
                 Centers for Medicare & Medicaid Services (CMS), 2012 CMS Statistics, Table III.6.
               Accessed at https://www.cms.gov/ResearchGenInfo/02_CMSStatistics.asp on September 14,
               2012. Note that 9.3 million Americans, or 21 percent of all Medicare enrollees in 2008 (see the
               CMS Web site at https://dnav.cms.gov/), were eligible for both Medicare and Medicaid and
               participated in both programs.
               2
                 Social Security Act (SSA), § 1819(b)(2) and (c)(2), 42 U.S.C. § 1395i-3(b)(2) and (c)(2),
               42 CFR § 483.20(k) and (l).
               3
                 OIG, Trends in Nursing Home Deficiencies and Complaints, OEI-02-08-00140,
               September 2008.
               4
                 OIG, Psychosocial Services in Skilled Nursing Facilities, OEI-02-01-00610, March 2003.
               5
                 OIG, Nursing Facility Assessments and Care Plans for Residents Receiving Atypical
               Antipsychotic Drugs, OEI-07-08-00151, July 2012.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   1
               found quality-of-care problems associated with beneficiaries discharged
               between SNFs and other facilities. 6
               Further, recent investigations have found a number of SNFs that failed to
               provide adequate care to beneficiaries. In one case, five facilities did not
               provide adequate staffing and services to beneficiaries, resulting in
               beneficiaries’ developing pressure ulcers, malnutrition, dehydration, and side
               effects from not receiving medications. 7 In another case, three facilities were
               charged with providing inadequate food and medication to beneficiaries. 8 In a
               third case, inadequate staffing caused numerous beneficiaries to develop
               pressure ulcers, some of which were left untreated. 9
               This study is part of a larger body of work about SNF payments and quality of
               care. The first study found that from 2006 to 2008, SNFs increasingly billed for
               higher paying categories, even though beneficiary characteristics remained
               largely unchanged. 10 Another study found that SNFs billed one-quarter of
               claims in error in 2009, resulting in $1.5 billion in inappropriate Medicare
               payments. 11 Moreover, the study found that for 47 percent of claims, SNFs
               misreported information on the beneficiary assessment, which is used to create
               care plans. Lastly, an upcoming study will review the quality of care and safety
               of Medicare beneficiaries transferred from acute-care hospitals to SNFs. 12
               Medicare Coverage Requirements for Part A SNF Stays
               The Part A SNF benefit covers skilled nursing care, rehabilitation services, and
               other services. These services commonly include physical, occupational, and


               6
                 OIG, Consecutive Medicare Stays Involving Inpatient and Skilled Nursing Facilities,
               OEI-07-05-00340, June 2007.
               7
                 Department of Justice (DOJ), Cathedral Rock Nursing Homes and a Nursing Home Operator
               Resolve Criminal and Civil Health Care Fraud Allegations Related to Failure of Care and
               Agree to Pay the United States over $1.6 Million, January 7, 2010. Accessed at
               http://www.justice.gov/usao/moe/press_releases/archived_press_releases/2010_press_releases/j
               anuary/cathedral_rock.html on November 10, 2011.
               8
                 DOJ, Rome Couple Charged With $30 Million Medicare & Medicaid Fraud Through Failure
               of Care at Three Nursing Homes, April 16, 2010. Accessed at
               http://www.justice.gov/usao/gan/press/2010/04-16-10b.pdf on November 10, 2011.
               9
                 Keenan Cummings, “Nursing Home Puts Residents in Jeopardy,” The Daily Athenaeum,
               December 6, 2007.
               10
                  OIG, Questionable Billing by Skilled Nursing Facilities, OEI-02-09-00202, December 2010.
               11
                  OIG, Inappropriate Payments to Skilled Nursing Facilities Cost Medicare More Than a
               Billion Dollars in 2009, OEI-02-09-00200, November 2012.
               12
                  OIG, Adverse Events in Post-Acute Care: Skilled Nursing Facilities, OEI-06-11-00370,
               forthcoming.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   2
               speech therapy; skin treatments; and assistance with eating, bathing, and
               toileting. Medicare covers these services for up to 100 days during any spell of
               illness. 13
               To qualify for the SNF benefit, the beneficiary must have been in the hospital
               for at least 3 consecutive days and the hospital stay must have occurred within
               30 days of the admission to the SNF. 14 The beneficiary must need skilled
               services daily in an inpatient setting and must require the skills of technical or
               professional personnel to provide these services. 15 In addition, these services
               must be ordered by a physician and must be for the same condition that the
               beneficiary was treated for in the hospital. 16
               Medicare Requirements Related to Quality of Care
               To ensure quality of care, SNFs are required to develop a care plan for each
               beneficiary and provide services in accordance with care plans. 17 Specifically,
               Section 1819 of the SSA requires SNFs to provide services to attain or maintain
               the highest practicable physical, mental, and psychosocial well-being of each
               beneficiary in accordance with the care plan. 18 To ensure that beneficiaries safely
               transition to the next care setting, SNFs are required to plan for each beneficiary’s
               discharge when facilities anticipate a discharge. 19
               Developing Care Plans and Providing Services. SNFs are required to develop
               care plans that describe the beneficiary’s medical, nursing, and psychosocial
               needs and how the SNF will meet these needs. 20 Care plans must include
               measurable objectives and timetables and be customized to the beneficiary. 21 To
               develop a care plan, SNFs use a tool called the Minimum Data Set (MDS) to
               assess the beneficiary’s clinical condition, functional status, and

               13
                  SSA, § 1812(a)(2)(A), 42 U.S.C. § 1395d(a)(2)(A).
               14
                  42 CFR § 409.30(a)(1) and (b)(1).
               15
                  42 CFR §§ 409.31(b)(1) and (3) and 409.31(a)(2).
               16
                  42 CFR § 409.31(a)(1) and (b)(2). Medicare also covers SNF services if the condition
               requiring such services arose when the beneficiary was receiving care in a SNF for a condition
               treated during the prior hospital stay.
               17
                  SSA, § 1819(b)(2) and (c)(2), 42 U.S.C. § 1395i-3(b)(2) and (c)(2), 42 CFR § 483.20(k).
               18
                  SSA, § 1819(b)(2), 42 U.S.C. § 1395i-3(b)(2).
               19
                  42 CFR § 483.20(l).
               20
                  SSA, § 1819(b)(2), 42 U.S.C. § 1395i-3(b)(2).
               21
                  42 CFR § 483.20(k)(1). See also CMS, Revised Long-Term Care Facility Resident
               Assessment Instrument User’s Manual Version 2.0 (RAI Version 2.0 Manual), Dec. 2002, rev.
               Dec. 2008, § 1.1. The RAI Manual was updated October 2010 to Version 3.0 (RAI Version 3.0
               Manual); however, we used the 2008 revision of version 2.0 because it was in effect during the
               time period we were studying.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   3
               expected and actual use of services. 22 SNFs must develop the care plan within
               7 days of this assessment and no more than 21 days after admission. 23
               Depending upon the responses to the assessment, different Resident Assessment
               Protocols (RAP) may be “triggered” that indicate the beneficiary may be at risk
               for certain problems, such as delirium, falls, and pressure ulcers. 24 See
               Appendix A for a list of all the RAPs.
               If a RAP is triggered, the SNF must assess the beneficiary further to determine
               whether the beneficiary is at risk of developing, or currently has, the problem
               associated with that RAP. If so, the SNF must specify in the beneficiary’s care
               plan how the SNF will prevent or address the problem. 25 If the SNF determines
               that the RAP problem area does not need to be addressed in the care plan, the
               SNF must document the reason in the medical record. 26
               An interdisciplinary team that includes at least the attending physician and a
               registered nurse with responsibility for the beneficiary must prepare the care
               plan. 27 In addition, to the extent practicable, the beneficiary, the beneficiary’s
               family, or the beneficiary’s legal representative should participate in the initial
               care planning. 28 This participation helps to ensure that the interdisciplinary team
               develops a care plan that addresses all of the beneficiary’s needs. 29
               Discharge planning. When the SNF anticipates the discharge of a beneficiary
               to another care setting or home, it must plan for the discharge. As part of this
               planning, the SNF must develop a discharge summary to help ensure that the
               beneficiary’s care is coordinated and that the beneficiary transitions safely to his

               22
                 42 CFR §§ 483.315(e) and 483.20(d); RAI Version 2.0 Manual, § 2.3. The MDS is part of a
               comprehensive assessment called the Resident Assessment Instrument (RAI); the RAI also
               includes Resident Assessment Protocols and Utilization Guidelines. CMS implemented a new
               version of the MDS for FY 2011. The new version puts more focus on assessing the beneficiary
               for certain MDS items through interviews with the beneficiary rather than on observations or
               document reviews. See RAI Version 3.0 Manual, § 1.5.
               23
                  SSA, § 1819(b)(3)(C), 42 U.S.C. § 1395i-3(b)(3)(C); 42 CFR § 483.20(b)(2)(i);
               42 CFR § 483.20(k)(2)(i). See also RAI Version 2.0 Manual, §§ 2.2 and 2.3. Specifically, the
               admission assessment must be completed within 14 days of the admission date, and the care
               plan must be completed within 7 days of the completion of the admission assessment.
               24
                  RAI Version 2.0 Manual, §§ 4.1 and 4.2. As of October 1, 2010, CMS updated the RAPs and
               renamed them “Care Area Assessments” (CAA). See RAI Version 3.0 Manual, ch. 3, section V.
               25
                  RAI Version 2.0 Manual, § 4.2.
               26
                  Ibid., § 4.6.
               27
                  SSA, § 1819(b)(2)(B), 42 U.S.C. 1395i–3(b)(2)(B).
               28
                  Ibid.
               29
                  CMS, State Operations Manual [SOM], Appendix PP, Tags F279 and F280.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   4
               or her new setting. The discharge summary should include a summary of the
               beneficiary’s stay, a summary of the beneficiary’s status at the time of
               discharge, and a post-discharge plan of care. 30 The post-discharge plan of care
               should describe what the beneficiary’s and family’s preferences for care are,
               how the beneficiary and family will access these services, how care should be
               coordinated if continuing treatment involves multiple caregivers, and what
               education or instructions should be provided to the beneficiary and his or her
               family. 31
               Monitoring by State Surveyors
               CMS contracts with State Survey and Certification agencies to determine
               whether nursing facilities are in compliance with Medicare requirements. 32 The
               State agencies conduct periodic surveys of each facility. If facilities are out of
               compliance with one or more requirements, surveyors cite them for deficiencies.
               In 2011, 22 percent of facilities surveyed did not meet care planning
               requirements, 14 percent did not provide services in accordance with care plans,
               and 1 percent did not meet the discharge planning requirements.
               When facilities are cited for deficiencies, CMS or the State may choose to
               impose a number of different enforcement actions depending upon the scope
               and severity of the deficiencies found. 33 These actions include requiring a plan
               of correction, denying future payment, or terminating the provider agreement.

               METHODOLOGY
               We based this study on a medical record review of a stratified simple random
               sample of Part A SNF stays from calendar year 2009.
               Selection of Sample for Medical Review
               Using CMS’s National Claims History File, we first identified all Part A SNF
               claims with dates of service in 2009. We grouped these claims by stay using the
               admission dates and identified the stays that ended in 2009. We then grouped
               these stays into three strata defined by the length of the stay and the number of
               claims. We selected a stratified simple random sample of 245 stays. See

               30
                    42 CFR § 483.20(l).
               31
                  CMS, SOM, Appendix PP, Tags F283 and F284.
               32
                  CMS, SOM, ch. 1, §§ 1004 and 1016. The surveys are conducted in accordance with CMS’s
               SOM. This manual includes the interpretive guidelines that surveyors follow to determine
               whether a facility complies with Medicare requirements.
               33
                  CMS, SOM, ch. 7.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   5
               Appendix B for more information about how we selected the sample. We used
               this sample to meet the objectives of this study and a companion study. 34 In our
               companion study, we included all stays. However, for this study, we focused on
               the stays that were 21 days or longer, because care plans must be completed
               within 21 days of admission to a SNF. This resulted in a sample of 190 stays
               that projects to 1,104,692 stays in the population.
               Medical Record Review
               We used a contractor to collect the medical records for each of the beneficiaries
               associated with the sampled stays. The contractor requested the medical record
               for each stay, which included the care plan; the beneficiary assessment,
               including the MDS and RAP information; and the post-discharge care plan; as
               well as physician orders, progress notes, therapy records and logs, and other
               documentation of the services that the beneficiary received. We had a
               100-percent response rate.
               We also contracted with medical record reviewers, who consisted of three
               registered nurses, each of whom had at least 12 years of SNF experience; and a
               physical therapist, an occupational therapist, and a speech therapist. The nurses
               reviewed the records and consulted with the therapists as needed. The
               reviewers used a standardized data collection instrument that was developed in
               accordance with the Medicare requirements related to care planning, provision
               of services, and discharge planning. The reviewers also identified any instances
               of poor quality care that they determined to be egregious. The instrument was
               developed in collaboration with the reviewers and tested on a sample of stays. 35
               The reviewers conducted the medical review between April and
               September 2011.
               Analysis
               Care Planning and Provision of Services. To determine the extent to which
               SNFs developed care plans and provided services in accordance with care plans,
               we analyzed the data from the medical record review. We identified the stays in
               which the care plans: (1) did not address one or more RAPs (hereinafter
               referred to as “problem areas”) and provided no explanation in the medical


               34
                  The companion study is Inappropriate Payments to Skilled Nursing Facilities Cost Medicare
               More Than a Billion Dollars in 2009, OEI-02-09-00200, November 2012.
               35
                  We conducted a preliminary review of a separate sample of 10 stays to test the instrument and
               to ensure consistency among the reviewers.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   6
               records; (2) lacked measurable objectives and detailed timeframes, i.e., duration
               or frequency; or (3) were not completed by an interdisciplinary team.
               For each stay, we determined whether care plans contained measurable
               objectives and detailed timeframes for the following eight categories of
               services: (1) scheduled toileting plans or bladder retraining programs,
               (2) parenteral IV or feeding tubes, (3) skin treatments, (4) speech therapy,
               (5) occupational therapy, (6) physical therapy, (7) respiratory therapy, and
               (8) restorative nursing services.
               Next, we identified the stays in which the SNFs did not provide services in
               accordance with care plans. Using the same service categories, we determined
               whether the duration and frequency of services provided was consistent with the
               duration and frequency called for in the care plans. We did not include
               instances when frequency was not applicable, such as the use of a specialized
               mattress, or when the duration of a service was understood without additional
               documentation, such as the dressing of a wound until it has healed. We also did
               not include instances when the SNFs changed the duration or frequency of
               services and provided explanations in the medical records. For example, if the
               record indicated that services were missed because the beneficiary refused
               treatment or was ill, we considered the frequency of services provided to be
               consistent with the care plan.
               Using our sample results, we estimated the percentage of all stays in the
               population that the care plans did not meet one or more Medicare requirements.
               We also estimated the percentage of all stays in the population in which the
               SNFs did not provide services in accordance with the care plans.
               Discharge Planning. To determine the extent to which SNFs planned for each
               beneficiary’s discharge, we identified each stay that did not have a summary of
               the stay and status at discharge and post-discharge plan of care. We based this
               analysis on stays for which the SNFs should have planned for the beneficiaries’
               discharge. Specifically, the analysis included 83 stays in which the beneficiaries
               were discharged to another institutional setting (e.g., another nursing facility or
               a hospital) or to the community (e.g., a group home or the beneficiaries’ own
               homes). 36 Using our sample results, we estimated the percentage of all stays in



               36
                 This analysis did not include stays in which the beneficiaries died, went to the hospital
               unexpectedly because of medical emergencies, or remained in the SNFs after the Part A stays
               ended.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   7
               the subpopulation described above in which the SNFs did not meet discharge
               planning requirements.
               Poor Quality Care. As part of the medical record review, we asked the
               reviewers to identify examples of poor care that that they determined to be
               egregious. We analyzed their responses and grouped them into common areas
               of concern.
               Limitations
               This report was based solely on a medical record review. It does not identify all
               instances of poor quality care. It highlights examples that reviewers determined
               were egregious on the basis of their review of the medical records. Reviewers
               did not systematically review the records for poor quality care provided during
               each stay.
               Standards
               This study was conducted in accordance with the Quality Standards for
               Inspection and Evaluation issued by the Council of the Inspectors General on
               Integrity and Efficiency.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   8
               FINDINGS
               For 37 percent of stays, SNFs did not meet care plan or
               service requirements
               For 37 percent of stays, the SNFs did not develop care plans that met requirements
               or provide services in accordance with care plans. Medicare paid approximately
               $4.5 billion for these stays, which did not meet these quality-of-care requirements.
               See Table 1 for the percentage of stays in which SNFs did not meet care plan and
               service requirements. See Appendix C-1 for the point estimates and confidence
               intervals.

               Table 1: Percentage of Stays in Which SNFs Did Not Meet Care Plan or Service
               Requirements, 2009
                                                       Percentage of Stays in            Medicare Payments for
                                                     Which SNFs Did Not Meet           Stays in Which SNFs Did
                Requirements                                   Requirements             Not Meet Requirements
                Care plan requirements                                       25.6%                       $3.1 billion
                Service requirements                                         15.4%                       $2.0 billion

                  Total                                                      36.7%                      $4.5 billion
               Source: Office of Inspector General medical record review, 2012.

               Note: The rows do not sum to the total because some stays met neither the care plan requirements nor the
               service requirements.



               For 26 percent of stays, SNFs did not develop care plans that met
               requirements
               SNFs are required to develop care plans that address problem areas identified in
               beneficiaries’ assessments, include measurable objectives and detailed timeframes,
               and are completed by an interdisciplinary team. These requirements help to
               ensure that beneficiaries’ needs are addressed and that care plans provide clear,
               individualized instructions about the most appropriate care for each beneficiary.
               For 26 percent of stays, the SNFs’ care plans did not meet at least one of the
               requirements. See Table 2 for the percentage of stays in which SNFs did not meet
               the specific requirements.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)         9
               Table 2: Percentage of Stays in Which SNFs Did Not Meet Care Plan
               Requirements, 2009

                                                                                Percentage of Stays in Which SNFs
                Care Plan Requirements                                        Did Not Meet Care Plan Requirements
                Care plans address problem areas identified in the
                assessments                                                                                         19.2%
                Care plans have measurable objectives and
                detailed timeframes*                                                                                  6.8%
                Care plans are developed by an interdisciplinary
                team                                                                                                  2.1%

                  Total                                                                                             25.6%
               Source: Office of Inspector General medical record review, 2012.
               Note: The rows do not sum to the total because some stays did not meet two or more care plan requirements.
               * The requirement states that both measurable objectives and timeframes must be in the care plan. The 6.8
               percent represents the stays in which either measurable objectives or timeframes were missing.



               For 19 percent of stays, SNFs developed care plans that did not address one or
               more problem areas identified in the beneficiaries’ assessments. For example,
               in one stay, the SNF made no plans to monitor a beneficiary’s use of
               antipsychotic medication that had potentially severe adverse reactions. In
               another stay, the SNF did not address the psychosocial needs of a beneficiary
               who had anxiety and made repeated health complaints. On average,
               beneficiaries had seven problem areas identified in their assessments. Some of
               the more common areas included activities of daily living, pressure ulcers,
               nutrition, and falls. See Appendix C-2 for the point estimates and confidence
               intervals for all 18 problem areas.
               For 7 percent of stays, the SNFs’ care plans did not include measurable
               objectives or detailed timeframes. These objectives and timeframes are
               intended to ensure that SNFs provide appropriate care in duration and frequency
               and that they monitor progress. Additionally, for 2 percent of stays, an
               interdisciplinary team did not complete the care plans. In one case, only one
               individual completed the care plan, and this care plan was completed after the
               beneficiary was discharged from the facility.
               The reviewers further observed that care plans were not always customized to
               the beneficiaries’ needs. One reviewer noted that care plans often had generic
               interventions or approaches and that there was not always evidence that the care
               plans for problem areas were developed using the information collected in the
               assessments. Another reviewer agreed, noting that the records had “many
               perfect computer-generated care plans” that were not individualized or
               customized for the beneficiaries. One reviewer also noted that sometimes the


Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)            10
               records had little to no documentation that the care plans were implemented.
               This reviewer noted that information on restorative nursing services, toileting
               programs, and preventive wound care was sometimes missing from the records.
               For 15 percent of stays, SNFs did not provide services in
               accordance with care plans
               For 15 percent of stays, SNFs failed to provide at least one service at the
               frequency or duration prescribed in the care plans. Reviewers found several
               examples in which SNFs provided more services than were indicated in the care
               plans; these examples commonly involved therapy. SNFs have an incentive to
               provide more therapy than indicated in the plan of care because the amount of
               therapy that SNFs provide to beneficiaries largely determines the amount that
               Medicare pays SNFs. In one example, the SNF provided therapy for
               12 continuous days without an explanation for the need for that amount of therapy.
               In another example, the SNF continued providing therapy even though the
               beneficiary had met all therapy goals.
               Reviewers also found examples in which SNFs provided fewer services than were
               indicated in the care plans. In one example, the beneficiary was scheduled to
               receive assistance with toileting at least three times a day; however, the record
               showed that this assistance was provided much less often. In another example, the
               beneficiary was scheduled to receive assistance with activities of daily living
               every day; however, these activities were performed for the first few days and then
               stopped without any explanation.

               For 31 percent of stays, SNFs did not meet discharge
               planning requirements
               SNFs must provide a plan for each beneficiary being discharged to another facility
               or to home. The plan must have a summary of the beneficiary’s stay and status at
               discharge, as well as a post-discharge plan of care. These requirements help
               ensure that care is coordinated and that the beneficiary’s needs are met after
               discharge. Not having this information can lead to inadequate care or even to
               serious medical errors and life-threatening situations.
               For 31 percent of stays, the SNFs failed to meet at least one of the discharge
               planning requirements. 37 Medicare paid approximately $1.9 billion for these
               stays. See Table 3 for the percentage of stays in which SNFs did not meet


               37
                    The point estimate is 31 percent with a 95-percent confidence interval of 21 to 43 percent.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   11
               discharge planning requirements. See Appendix C-3 for the point estimates and
               confidence intervals.

               Table 3: Percentage of Stays in Which SNFs Did Not Meet Discharge
               Planning Requirements, 2009

                                                                                  Percentage of Stays in Which SNFs
                                                                                    Did Not Meet Discharge Planning
                Discharge Planning Requirement                                                          Requirement
                Summary of beneficiary’s stay and status at
                discharge                                                                                    16.0%
                Post-discharge plan of care                                                                  23.3%

                  Total                                                                                      30.9%
               Source: Office of Inspector General medical record review, 2012.
               Note: The rows do not sum to the total because some stays did not meet either requirement.



               For 16 percent of stays, SNFs did not have summaries of the beneficiaries’ stays
               or statuses at discharge. Such summaries ensure that the next care provider has
               the necessary information regarding the beneficiary’s current and prior health,
               including any treatments received and the beneficiary’s response to them.
               Additionally, for several of the stays for which SNFs had summaries, the
               reviewers noted that the summaries had only minimum information, such as the
               statement “Has done well.” The reviewers also found a few discharge-status
               summaries that contained no clinical information; this information is essential to
               ensuring a safe transition for the beneficiary to another care setting. In one case,
               the discharge status contained only the statement “[D]ischarged in stable
               condition, vital signs.” The summaries may have lacked clinical information
               because physicians were not always part of the teams that completed them. For
               example, the reviewers noted that sometimes the discharge statuses were written
               by therapists and included only information regarding the beneficiaries’ functional
               levels and therapy goals.
               For 23 percent of stays, SNFs did not have post-discharge plans of care. Such
               instructions are essential to ensuring that the beneficiary’s needs are met after
               discharge. In one example, the beneficiary needed specific instructions about her
               medication; however, the medical record noted that this was not provided. The
               reviewers also noted several instances when the medical records indicated that
               staff provided only verbal instructions to the beneficiaries.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)     12
               Medical reviewers found examples of poor quality care
               related to wound care, medication management, and
               therapy
               The medical reviewers found a number of egregious examples of poor quality
               care that were related to wound care, medication management, and therapy.
               Wound care
               The medical reviewers identified three instances in which SNFs provided poor
               wound care that may have resulted in the beneficiaries’ condition worsening.
               Wound care refers to the various treatments provided to heal wounds, which may
               include application of dressings to the wound and the removal of nonviable tissue.
               The following two examples illustrate the issues that the reviewers found.
               •    A beneficiary was admitted to a SNF with a pressure ulcer. During her stay,
                    the beneficiary developed three other pressure ulcers. The SNF had
                    difficulty tracking and treating each wound properly, which made healing
                    more difficult. In addition, nursing notes regarding the treatment provided
                    for each wound were confusing and inconsistent.
               •    Another beneficiary developed a heel ulcer during her stay. The SNF
                    provided inadequate wound care and neglected to provide interventions
                    aimed at relieving pressure on the heel. The ulcer worsened considerably
                    over the course of 2 months.
               Furthermore, one medical reviewer observed that several SNFs did not
               include detailed information about wounds in the medical records. The
               reviewer noted that SNFs may not want to call attention to any pressure
               ulcers acquired during a beneficiary’s stay. SNFs are required to report
               such instances to CMS. CMS then includes this data in its Nursing Home
               Compare Web site, which provides information to the public about each
               nursing facility. 38




               38
                 For more information on the data collected for Nursing Home Compare, see
               http://www.medicare.gov/NursingHomeCompare.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   13
               Medication Management
               The medical reviewers identified five instances in which SNFs did not
               appropriately manage beneficiaries’ medications. The following two
               examples illustrate such issues.
               •    A beneficiary with dementia was given an antipsychotic drug during her
                    SNF stay. This drug has a “black-box warning” that it is not approved for
                    patients with dementia-related psychosis and may result in severe or life-
                    threatening risks. 39 The medical record indicated that SNF staff and the
                    beneficiary’s roommate saw that the beneficiary was more confused, was
                    agitated, and was not sleeping well after using the drug. However, the SNF
                    did not address these issues in any way.
               •    Another beneficiary was given an antipsychotic drug when she did not have
                    a diagnosis for psychosis and her care plan did not indicate that she had a
                    mood disorder. The physician noted that the beneficiary was confused while
                    on the drug, but he still increased the dosage. A month later, the
                    beneficiary’s family complained that the physician and SNF staff were
                    trying to sedate the beneficiary with the drug.
               These examples illustrate some of the same issues found in a previous OIG
               study. 40 That study found that 95 percent of claims for atypical antipsychotic
               drugs for elderly nursing facility residents were for off-label use and/or the
               condition specified in the black-box warning. 41 Although physicians are not
               prohibited from prescribing drugs for off-label use or for conditions specified in
               the black-box warning, Medicare will pay only for drugs that are used for
               medically accepted indications. The study found that 50 percent of claims did
               not meet this criterion.




               39
                  If drug manufacturers or the Food and Drug Administration (FDA) determines during the
               approval process or after a drug has been approved for marketing that the drug may produce
               severe or life-threatening risks, FDA requires that drug manufacturers include a boxed warning
               (also referred to as a “black-box warning”) on the product’s labeling to warn prescribers and
               consumers of these risks. See 21 CFR § 201.57(c)(1).
               40
                  OIG, Medicare Atypical Antipsychotic Drug Claims for Elderly Nursing Home Residents,
               OEI-07-08-00150, May 2011.
               41
                  “Off-label use” is the term used to describe the provision of a drug for an indication other
               than the one approved by FDA.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   14
               Therapy
               The medical reviewers identified two instances in which SNFs provided
               inappropriately high levels of therapy to beneficiaries given their conditions. The
               following illustrate these issues.
               •    A beneficiary received hospice care for terminal lung cancer and bone
                    metastasis prior to SNF admission.42 During the beneficiary’s SNF stay, the
                    SNF provided her with physical therapy 5 days a week for 5 weeks. The
                    medical record showed that the beneficiary participated in therapy at first,
                    but at some point, she did not want to continue. However, the SNF
                    continued the therapy at the same intensity for the remainder of her stay
                    until she was discharged to home with hospice care.
               •    Another beneficiary had a dislocated hip and could not bear weight on that
                    side. Even though the beneficiary should not have been ambulating, the
                    SNF provided “ultrahigh” levels of physical therapy to the beneficiary for
                    the entire stay. 43
               These examples are consistent with the findings from a previous OIG study. 44
               That study found that SNFs billed for a higher payment category than was
               appropriate for 20 percent of all claims in 2009. For approximately half of
               these claims, SNFs billed for ultrahigh levels of therapy when they should have
               billed for lower levels of therapy or no therapy at all. For some of these claims,
               the reviewers determined that the amount of therapy indicated in the
               beneficiary’s medical record was not reasonable and necessary. As noted
               earlier, the amount of therapy that the SNF provides to the beneficiary largely
               determines the amount that Medicare pays the SNF.




               42
                  Metastasis is the spread of cancer from one part of the body to another.
               43
                  Ultrahigh therapy is the highest level of therapy a beneficiary may receive under the SNF
               payment system. It is 720 minutes or more of therapy per week. Medicare generally pays the
               most for this level of therapy.
               44
                  OIG, Inappropriate Payments to Skilled Nursing Facilities Cost Medicare More Than a
               Billion Dollars in 2009, OEI-02-09-00200, November 2012.



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   15
               CONCLUSION AND RECOMMENDATIONS
               SNFs are required to provide care planning and discharge planning for
               beneficiaries. These requirements are essential to ensuring that beneficiaries
               receive appropriate care and safely transition from one care setting to another.
               For 37 percent of stays, SNFs did not develop care plans that met requirements
               or provide services that were consistent with care plans. For 31 percent of
               stays, SNFs did not meet discharge planning requirements. Medicare paid
               approximately $5.1 billion for stays in which SNFs did not meet these
               quality-of-care requirements. Additionally, reviewers found a number of
               examples of poor quality care related to wound care, medication management,
               and therapy.
               These findings raise concerns about what Medicare is paying for. They also
               demonstrate that CMS should do more to strengthen its oversight of SNFs to
               ensure that they perform appropriate care planning and discharge planning for
               beneficiaries.
               We recommend that CMS:
               Strengthen the Regulations on Care Planning and Discharge
               Planning
               CMS should revise the regulations on care planning and discharge planning to
               reflect current standards of practice and to address the vulnerabilities identified in
               this report. For example, CMS should strengthen the requirement that services be
               provided in accordance with care plans. Specifically, it should require SNFs to
               document in the medical records the reasons why they did not provide services in
               accordance with the care plans, similar to the existing requirement for SNFs to
               document the reasons why they did not develop care plans to address identified
               problem areas. CMS should also add a requirement that discharge planning be
               conducted by an interdisciplinary team, including a physician.
               Provide Guidance to SNFs To Improve Care Planning and Discharge
               Planning
               CMS should provide guidance to SNFs about care planning and discharge
               planning to ensure that SNFs make improvements in these areas. The guidance
               should reiterate and expand on the requirements. For care planning, it should
               emphasize the importance of addressing the problem areas identified in the
               beneficiary’s assessment. To ensure that all of the beneficiary’s needs are met, the
               guidance should stress that the care plan must be customized to the beneficiary
               and include measurable objectives and timeframes. In addition, the care plan


Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   16
               should be based on communication among interdisciplinary team members, the
               beneficiary, and the beneficiary’s family. CMS should also emphasize that the
               care plan should be treated not as a documentation exercise but rather as an
               integral step in meeting the beneficiary’s needs.
               For discharge planning, the guidance should state that the discharge summary
               needs to provide an adequate clinical picture of the beneficiary and detailed
               individualized care instructions to ensure that care is coordinated and that the
               beneficiary transitions safely from one care setting to another. CMS should
               clarify the type of information that should be included in the discharge summary
               and specify that an interdisciplinary team, including a physician, should develop
               the summary of the beneficiary’s stay and status at discharge.
               Increase Surveyor Efforts To Identify SNFs That Do Not Meet Care
               Planning and Discharge Planning Requirements and To Hold These
               SNFs Accountable
               State surveyors are CMS’s primary tool to verify that SNFs are meeting care
               planning and discharge planning requirements and to enforce these requirements.
               CMS should increase surveyor efforts to make SNFs more accountable. It should
               provide more detailed guidance to surveyors to improve the detection of
               noncompliance, particularly for discharge planning. Specifically, CMS should
               revise its interpretive guidelines in the SOM and train surveyors to ensure that
               they cite facilities that are not developing individualized care plans or are not
               developing specific discharge plans that involve an interdisciplinary team,
               including a physician.
               In addition, CMS should increase the use of existing enforcement remedies when
               SNFs do not meet care planning and discharge planning requirements. CMS
               should determine when enforcement actions should be taken for SNFs that are out
               of compliance with these requirements and which actions are most appropriate,
               such as increased State monitoring, a directed plan of correction, or civil monetary
               penalties.
               Link Payments to Meeting Quality-of-Care Requirements
               CMS should develop and expand alternative methods beyond the State survey and
               certification process to promote compliance and make improvements in the areas
               of care planning and discharge planning. CMS should link SNF payments more
               closely to meeting the requirements. To do so, it could build upon lessons learned
               from existing pay-for-performance incentive programs that reward SNFs for
               quality and improvement in care. For example, CMS could incorporate quality



Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   17
               measures for care planning and discharge planning in its Skilled Nursing Facility
               Value-Based Purchasing program.
               Follow Up on the SNFs That Failed To Meet Care Planning and
               Discharge Planning Requirements or That Provided Poor Quality
               Care
               We will provide CMS with a list of SNFs that failed to meet care planning and
               discharge planning requirements or provided poor quality care. When one
               problem is found, it may indicate a wider problem in the facility. CMS should
               provide the list to State Survey and Certification agencies to prioritize these
               facilities for review and determine whether enforcement actions are needed.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   18
               AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
               RESPONSE

               CMS concurred with all five of our recommendations. CMS concurred with our
               first recommendation and stated that it is conducting a comprehensive review of
               the requirements for participation for long term care facilities to ensure that the
               regulations are effective and these facilities provide quality care. In addition, it
               has reached out to several external stakeholder groups for public input on these
               issues.

               CMS concurred with our second recommendation and stated that its contractors,
               the Quality Improvement Organizations, are enrolling nursing homes in the
               Nursing Home Quality Care Collaborative. This initiative uses a menu of
               actionable items to improve the overall quality of care being received by
               residents and their quality of life. One of the items focused on in this initiative
               is care planning. CMS has also assembled a workgroup to identify areas of the
               SOM that might better address the discharge planning requirements.

               CMS concurred with our third recommendation and stated that it will consider
               ways to increase oversight of care planning and discharge planning issues in
               SNFs. With regard to increasing the use of existing enforcement remedies,
               CMS stated that it will review the current citations related to care planning and
               discharge planning, including the severity determinations and enforcement
               actions taken, and work to develop ways to improve its enforcement efforts.

               CMS concurred with our fourth recommendation and stated that it will consider
               incorporating care planning and discharge planning in future nursing home
               demonstrations. Finally, CMS concurred with our fifth recommendation and
               stated that it will analyze the survey data and determine appropriate methods to
               strengthen enforcement of CMS requirements.

               We support CMS’s efforts to address these issues. For the full text of CMS’s
               comments, see Appendix D.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   19
               APPENDIX A

               List of the 18 Resident Assessment Protocols

                Activities
                Activities of daily living functional/rehabilitation potential
                Behavior symptoms
                Cognitive loss
                Communication
                Dehydration/fluid maintenance
                Delirium
                Dental care
                Falls
                Feeding tubes
                Mood state
                Nutritional status
                Physical restraints
                Pressure ulcers
                Psychosocial well-being
                Psychotropic drug use
                Urinary incontinence and indwelling catheter
                Visual function




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   20
               APPENDIX B

               Sample Design
               We used this sample design to meet the objectives of this study and our
               companion study, Inappropriate Payments to Skilled Nursing Facilities Cost
               Medicare More Than a Billion Dollars in 2009, OEI-02-09-00200. For this
               study, we analyzed stay-level data from strata 2 and 3, for a total of 190 stays.

                                                                             Number of       Number of
                                                                               Stays in        Stays in
                 Stratum       Stratum Description                           Population        Sample
                 1             Length of stay less than 21 days
                               in 2009 and 3 or fewer claims in
                               2009                                           1,264,073             55
                 2             Length of stay 21 or more days
                               in 2009 and 3 or fewer claims in
                               2009                                                435,893          45
                 3             Stays with over 3 claims in 2009
                               (by default, length of stay is more
                               than 21 days)                                       668,799         145
                     Total                                                    2,368,765            245

                Source: Office of Inspector General medical record review, 2012.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   21
                   APPENDIX C

                   Point Estimates, Sample Sizes, and 95-Percent Confidence
                   Intervals for All Estimates Presented in the Report



 C-1: Estimates for All Stays

                                                                   Sample                       95-Percent Confidence
 Estimate Characteristic                                             Size    Point Estimate                   Interval
 Stays in which skilled nursing facilities (SNF) did not              190             36.7%               29.7%–44.5%
 meet care plan or service requirements

 Payment for stays in which SNFs did not meet care                    190        $4.5 billion   $3.5 billion–$5.5 billion
 plan or service requirements

 Payment for stays in which SNFs did not meet care                    190        $3.1 billion   $2.1 billion–$4.0 billion
 plan requirements

 Payment for stays in which SNFs did not meet                         190        $2.0 billion   $1.2 billion–$2.8 billion
 service requirements

 Stays in which SNFs did not develop care plans that                  190             25.6%               19.4%–32.9%
 met requirements

    - Care plans did not address one or more problem                  190             19.2%               13.8%–26.0%
 areas identified in the assessments

    - Care plans did not include measurable                           190              6.8%                3.8%–12.2%
 objectives or detailed timeframes

    - Interdisciplinary teams did not complete the care               190              2.1%                 0.7%–6.0%
 plans

 The average number of problem areas per                              190                7.0                     6.5–7.6
 beneficiary

 Stays in which SNFs did not provide services in                      190             15.4%               10.5%–22.2%
 accordance with care plans

 Payment for stays in which SNFs did not meet care                    190        $5.1 billion   $4.1 billion–$6.2 billion
 plan requirements, service requirements, or
 discharge planning requirements
Source: Office of Inspector General medical record review, 2012.




 Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)      22
                 APPENDIX C (CONTINUED)

      C-2: Percentage of Stays in Which Beneficiaries Had Problem Areas (Resident
      Assessment Protocols) Identified in Their Assessments

                                                                       Sample                             95-Percent
      Resident Assessment Protocol                                       Size   Point Estimate     Confidence Interval
      Activities of daily living functional/rehabilitation
      potential                                                           190          86.1%             80.5%–90.3%

      Pressure ulcers                                                     190          81.0%             74.7%–86.0%

      Nutritional status                                                  190          69.1%             61.9%–75.5%

      Falls                                                               190          61.4%             53.9%–68.5%

      Dehydration/fluid maintenance                                       190          55.4%             47.7%–62.8%

      Urinary incontinence and indwelling catheter                        190          54.0%             46.3%–61.5%

      Cognitive loss                                                      190          53.1%             45.4%–60.6%

      Psychotropic drug use                                               190          44.2%             36.8%–51.9%

      Mood state                                                          190          40.9%             33.6%–48.7%

      Psychosocial well-being                                             190          40.4%             33.1%–48.1%

      Communication                                                       190          33.5%             26.8%–40.9%

      Visual function                                                     190          22.5%             16.8%–29.5%

      Dental care                                                         190          21.7%             16.0%–28.7%

      Delirium                                                            190          15.4%             10.5%–22.2%

      Behavior symptoms                                                   190          10.6%              6.7%–16.4%

      Activities                                                          190            8.0%             4.9%–12.8%

      Feeding tubes                                                       190            5.5%              3.0%–9.6%

      Physical restraints                                                 190            1.3%              0.3%–5.5%

    Source: Office of Inspector General medical record review, 2012.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)    23
                 APPENDIX C (CONTINUED)

 C-3: Estimates for Stays in Which the Beneficiaries Were Discharged

                                                                                                             95-Percent
 Estimate Characteristic                                           Sample Size   Point Estimate       Confidence Interval
 Stays in which SNFs did not meet discharge                                83            30.9%              21.2%–42.6%
 planning requirements

 Payment for stays in which SNFs did not meet                              83       $1.9 billion   $1.1 billion–$2.7 billion
 discharge planning requirements

 Stays in which SNFs’ discharge planning did not                           83           16.0%                9.0%–26.9%
 include summaries of the stays or statuses at
 discharge

 Stays in which SNFs’ discharge planning did not                           83           23.3%               15.0%–34.4%
 include post-discharge plans of care

Source: Office of Inspector General medical record review, 2012.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)          24
               APPENDIX D

               Agency Comments


              DEPARTMENT OF HFALTI-I & HUMAN SERVICES

                                                                                        Adminish'ator
                                                                                        W<lahlngton, DC 20201




             DATE:
                           JAN I 7 2013
            TO:            Daniel R. Levirnon
                           Inspector General
                                                /S/
             •"ROM:        Moofyn l'll\'enncr
                           Acti ~Aidm'S.nistrator

            SUBJF£T!       Office of Iuspector General (OIG) Draft Report: "Skilled Nursing Facilities Often Fail
                           to Meet Care Planning and Discharge Plann.ing Requirements" OEI-02-09-00201



            The Centers for Medicare & Medicaid Services (CMS) would like to thank the OIG for the
            opportunity to review and comment on the subject O!G draft report. CMS recognizes the
            importance and impact of effective care planning and discharge planning on the quality of life
            and care for nursing home residents. The OlG's objectives for this report are to determine the
            extent to which skilled nursing facilities (SNFs) met Medicare requirements for care planning
            and discharge planning, and describe instances of poor quality care provided by SNFs.

            The CMS responses to the OIG recommendations are discussed below.

             QlG Recommend!ttio.n 1

            The OIG .recoiumends thal CMS strengthen the regulations on care planning and discharge
            planning.

             (;MS Response

             The CMS concurs with this recommendation. Care planning and discharge planning are
             important aspects of providing quality care. CMS is currently conducting a comprehensive
             review of the requirements for participation for long term care facilities to ensure that the
             regulatiorn are effective and these facilities provide quality care. The applicable regulatory
             provisions in 42 Cr"R Part 483, Subpart B are being reviewed for possible areas of improvement
             to ensure the health and safety of long-term care residents. Our review of these regulations
             includes consideration of timeliness, resident-centeredness, and quality impmvement. In
             addition, CMS has reached out to several external stakeholder groups for public input on their
             key co.ncerns and suggestions on tbe~e iss ues. We apprecia te this timel.y and informative OIG
             report and will consider the results and recommendations of this study as we conclude our
             regulations rev iew process,




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   25
Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   26
Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   27
               ACKNOWLEDGMENTS
               This report was prepared under the direction of Jodi Nudelman, Regional
               Inspector General for Evaluation and Inspections in the New York regional
               office, and Nancy Harrison and Meridith Seife, Deputy Regional Inspectors
               General.
               Judy Kellis served as the team leader for this study. Other Office of Evaluation
               and Inspections staff from the New York regional office who conducted the study
               include Judy Bartlett. Central office staff who provided support include
               Berivan Demir Neubert, Kevin Farber, Sandy Khoury, Christine Moritz,
               Sue Nonemaker, and Julie Taitsman.




Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge Planning Requirements (OEI-02-09-00201)   28
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
